Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      Quality Oversight of
    Ambulatory Surgical Centers

          A System in Neglect




                    JANET REHNQUIST
                    Inspector General

                      FEBRUARY 2002
                      OEI-01-00-00450
                            OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the health
and welfare of beneficiaries served by them. This statutory mission is carried out through a nationwide
program of audits, investigations, inspections, sanctions, and fraud alerts. The Inspector General
informs the Secretary of program and management problems and recommends legislative, regulatory,
and operational approaches to correct them.

                             Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Boston Regional Office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General and Joyce M. Greenleaf, MBA, Assistant Regional Inspector General.
Principal OEI staff included:

BOSTON                                                     HEADQUARTERS

Kenneth R. Price, Project Leader                           Linda Frisch, Program Specialist

Christopher T. Gould, MS, Program Analyst

Megan V. Smith, MPH, Program Analyst





          To obtain copies of this report, please call the Boston Regional Office at (617) 565-1050.
            Reports are also available on the World Wide Web at our home page address:

                                           http://oig.hhs.gov/oei
                            EXECUTIVE SUMMARY

Purpose and Background

          This inquiry assesses how State agencies and accreditors oversee ambulatory surgical centers
          (ASCs) and how the Centers for Medicare & Medicaid Services (CMS) holds them
          accountable. In addition to this report, this inquiry includes two supplemental reports:
          Supplemental Report 1: The Role of Certification and Accreditation and Supplemental
          Report 2: Holding the State Agencies and Accreditors Accountable.

          Medicare annually pays over $1.6 billion for procedures performed by over 3,000 ASCs.
          Quality oversight of ASCs revolves around the Conditions of Coverage, Medicare’s set of
          minimum health and safety requirements. ASCs must become Medicare certified by a State
          survey and certification agency or privately accredited to show that they meet the Conditions.
          The overwhelming majority of ASCs choose to become certified by State agencies.

          While ambulatory surgery has been shown to have good outcomes, routine procedures can
          result in serious complications and death. For example, a patient undergoing a routine
          Medicare-covered gynecologic procedure died in an ASC from complications; a patient whose
          bladder was perforated during surgery in an ASC was transported while bleeding to the nearest
          emergency room; a patient undergoing one of the most common procedures in Medicare,
          cataract extraction, went into cardiac arrest and died on the operating table in an ASC.

Findings

Oversight of ASCs is more important than ever
      Medicare ASCs are experiencing explosive growth—more than doubling in number from 1990
      to 2000. Over the same period, the annual volume of major procedures they performed
      increased by 730 percent, from 12,000 to over 101,000 procedures.

But Medicare’s system of quality oversight is not up to the task
     Nearly a third of ASCs certified by State agencies have not been recertified in 5 or more years.
     Accredited ASCs are surveyed at least every 3 years, but the survey process devotes less
     attention to verifying compliance.

And it lacks accountability
       CMS does little to hold State certification agencies and accreditors accountable to the
       Medicare program and the public.




Quality Oversight of ASCs: A System in Neglect       1                                    OEI-01-00-00450
Recommendations

CMS should determine an appropriate minimum cycle for surveying ASCs
certified by State agencies

CMS should update the Medicare Conditions of Coverage for ASCs
     Add sections to address patient rights and continuous quality improvement. Make the
     conditions adjustable to match the levels of surgery performed by different ASCs.

CMS should ensure that State agency certification and accreditation strike an
appropriate balance between compliance and continuous quality improvement
     Monitor State agencies and accreditors to ensure that they protect the public from poor
     performing ASCs while encouraging the rest to go beyond minimal health and safety standards.

CMS should hold State agencies and accreditors fully accountable to the
Medicare program for their performance overseeing ASCs
     Use electronic data reporting, Federal oversight surveys, and formal, periodic evaluations to
     monitor and provide feedback to State agencies and accreditors.

CMS should do more to hold State agencies and accreditors accountable to the
public for their performance overseeing ASCs
      Take steps to increase public information about State agency certified and accredited ASCs
      and the accessibility of State agencies’ and accreditors’ complaint processes. Publish
      performance information about State agencies and the accreditors.

Comments on the Draft Reports
          Within the Department, we received comments from CMS. We also solicited and received
          comments from the Accreditation Association for Ambulatory Health Care, the Joint
          Commission on Accreditation of Healthcare Organizations, and the American Association for
          Accreditation of Ambulatory Surgical Facilities. The full text is included in appendix A. In
          response, we made several clarifying and technical changes.

          The commenters expressed much general support for our recommendations. CMS elaborated
          on options it is considering that are in accord with many of our recommendations. However,
          citing resource constraints and other concerns, it did not fully commit itself to a number of our
          recommendations, particularly those calling for a minimum survey cycle and a more accessible
          complaint process. We urge CMS to devote a sense of urgency to the early warning signal we
          provide and to develop an action plan detailing the specific actions it will take to improve ASC
          oversight.

          Some commenters took issue with our concerns about the depth of accreditation surveys. We
          still conclude that accreditation surveys tend to pay more attention to education and
          improvement than to verifying compliance, but in the final reports did give more prominence to
          the need for balance between compliance and improvement.


Quality Oversight of ASCs: A System in Neglect        2                                    OEI-01-00-00450
                           TABLE                          OF              CONTENTS

                                                                                                                                      PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS


          Oversight of ASCs is more important than ever . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Medicare’s system of quality oversight is not up to the task . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Medicare’s system of quality oversight lacks accountability . . . . . . . . . . . . . . . . . . . . . . . . . . 7


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


COMMENTS on the DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES


          A: Comments on the Draft Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

          B: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34





Quality Oversight of ASCs: A System in Neglect                        3                                                  OEI-01-00-00450
                                        INTRODUCTION

Purpose

          To assess how State agencies and accreditors oversee ambulatory surgical centers (ASCs) and
          how the Centers for Medicare & Medicaid Services (CMS) holds them accountable.

Background

          ASCs in the Medicare Program
          In 2000, Medicare paid $1.6 billion for 4.3 million procedures performed in ambulatory
          surgical centers (ASCs). ASCs are generally free-standing facilities and may only bill Medicare
          for surgical procedures that the Centers for Medicare & Medicaid Services (CMS) has
          determined can be performed safely outside of the hospital. 1 Currently, over 3,000 ASCs
          participate in Medicare.

          While ambulatory surgery has been shown to have good surgical outcomes, even routine
          procedures can result in serious complications and death. 2 For example, a patient undergoing a
          routine Medicare-covered gynecologic procedure died in an ASC from complications during
          surgery; a patient whose bladder was perforated during surgery in an ASC was transported
          while bleeding to the nearest emergency room; a patient undergoing one of the most common
          procedures in Medicare, cataract extraction, went into cardiac arrest and died on the operating
          table in an ASC. While these adverse events could happen in any setting, the risk of such
          complications and the fact that more elderly patients with poorer health conditions are
          becoming candidates for ambulatory surgery illustrate the necessity for strong quality oversight
          of ASCs.3

          Quality Oversight of ASCs
          Quality oversight of ASCs revolves around the Conditions of Coverage, Medicare’s set of
          minimum health and safety requirements. CMS requires that ASCs become Medicare-
          certified by a State survey and certification agency or privately accredited to show that they
          meet the Conditions. While ASCs are free to choose which route they take, over 90 percent
          elect to become certified by State agencies rather than through accreditation. Some ASCs that
          are certified by State agencies, however, are also accredited for reasons other than Medicare
          certification.

          The focus of certification by State agencies and accreditation is routine inspections of ASCs,
          called surveys. Generally, surveys are conducted to add new ASCs to Medicare, reevaluate
          those already in the program, and respond to complaints or adverse events. State agency
          surveys follow CMS’ survey protocol, which is based on the Conditions. Accreditation
          surveys, however, are based on accreditors’ own standards. Thus, only accreditors whose
          standards meet or exceed the Conditions may survey ASCs for Medicare.4 CMS has
          approved three accreditors: the American Association for Accreditation of Ambulatory Surgical

Quality Oversight of ASCs: A System in Neglect       4                                    OEI-01-00-00450
          Facilities, the Accreditation Association for Ambulatory Health Care, and the Joint Commission
          on Accreditation of Healthcare Organizations.5

          Holding State Agencies and Accreditors Accountable
          CMS’ tools for monitoring and holding State agencies and accreditors accountable to
          Medicare include: 1) electronic data reporting that, for each survey, identifies the provider,
          survey date, standards not met by the provider, and follow-up activity;
          2) Federal oversight surveys during which CMS staff observe surveys unfold or evaluate
          recently surveyed facilities; and, 3) periodic evaluations whereby CMS conducts formal
          reviews of State agencies’ and accreditors’ performance.

          Tools for holding State agencies and accreditors accountable to the public include:
          1) public release of data on the performance of ASCs; 2) complaint processes that investigate
          complaints about poor care received in ASCs; and 3) public release of data on the
          performance of State agencies and accreditors.

This Inquiry and This Report

          This inquiry focuses on the oversight of ASCs and is part of a larger plan to assess the quality
          oversight of ambulatory surgery in the Medicare program. We chose to evaluate the oversight
          of ASCs first because they are one of the fastest growing settings for ambulatory surgery in
          Medicare. In addition to this report, this inquiry includes two supplemental reports:
          Supplemental Report 1: The Role of Certification and Accreditation and Supplemental
          Report 2: Holding the State Agencies and Accreditors Accountable.

          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




Quality Oversight of ASCs: A System in Neglect         5                                     OEI-01-00-00450
                                                 FINDINGS

Oversight of ASCs is more important than ever

          Medicare ASCs are experiencing explosive growth
          From 1990 to 2000, the number of ASCs has increased by close to 200 facilities a year while
          during the same period the number of hospitals decreased slightly. In fact, over the past 5
          years, the growth rate of ASCs outpaces all other settings in Medicare except for
          comprehensive rehabilitation facilities and rural health clinics.

          As the number of ASCs has increased, so too has the number of surgical procedures that they
          perform. From 1990 to 2000, the annual volume of procedures performed by ASCs grew by
          over 220 percent, from 1.3 to 4.3 million procedures. This growth outpaces that of Medicare’s
          two other main surgical settings, hospital outpatient departments and inpatient hospitals, which
          grew by 78 percent and 38 percent respectively.

          Scope and complexity of procedures are on the rise
          From 1990 to 2000, CMS approved over 800 new procedures for ASCs—bringing the total
          number of approved procedures to nearly 2,300.6 Many of these new procedures are major
          procedures that involve high levels of anesthesia and invasiveness. In fact, CMS now allows
          ASCs to conduct over 600 major procedures that together represent over a quarter of all
          approved procedures. Recently CMS proposed expanding its list of approved procedures to
          over 2,500 procedures, 743 of which are major procedures.7

          These changes in the list of approved procedures have resulted in a dramatic increase in the
          volume of major procedures performed in ASCs. Between 1990 and 2000, the annual volume
          of major procedures taking place in ASCs increased by 730 percent, from 12,000 to over
          101,000 procedures, while those in outpatient departments and hospitals grew by 392 percent
          and 57 percent respectively.

But Medicare’s system of quality oversight is not up to the task

          State agencies’ ability to adequately oversee ASCs is crumbling
          Nearly a third of ASCs certified by State agencies (872) have gone 5 or more years and 136
          facilities have gone 10 or more years without a recertification survey.8 From 1990 to 2000, the
          elapsed time between recertification surveys of ASCs already in the program more than
          doubled, from 1.8 years to 4.4 years. Elapsed time between surveys grew so dramatically
          during this period because the level of State agency surveys changed little while the number of
          ASCs certified by State agencies more than doubled.9 These numbers are significant because
          the overwhelming majority of ASCs—over 90 percent —are certified by State agencies.

          State agencies’ oversight of ASCs is also weak in following through with complaints. In the
          past 5 years, State agencies responded to 141 complaints with a complaint survey.

Quality Oversight of ASCs: A System in Neglect       6                                    OEI-01-00-00450
          Yet, as of 2001, 47 percent of these complaints remain unresolved—in some cases for as many
          as 5 years. In fact, nearly a fifth of these complaints are against facilities that have deficiencies
          serious enough to warrant termination from Medicare.10

          In addition, the standards that drive State agency surveys, the Medicare Conditions of
          Coverage, have not been updated since the inception of the ASC program in 1982. Thus,
          State agency certification has failed to keep pace with important advances in quality oversight.
          For example, the Conditions do not address patient rights, such as handling patient complaints
          and safeguarding patient privacy. They also fail to address continuous quality improvement.11
          CMS has begun to address these issues in the Conditions for other provider types including
          nursing homes, home health agencies, and hospitals.12 We note that CMS attempted to update
          the Conditions in 1996, but its effort never reached conclusion.

          Finally, State agency surveys perform a focused review around the Conditions, but fail to
          encompass quality improvement. These surveys are characterized by a challenging, direct
          approach in which surveyors aim to enforce minimums, rather than educate toward quality
          improvement. This approach is reinforced by CMS’ survey policy, which states that surveyors
          are not to educate, advise, or consult with the facility on ways to improve its quality of care.

          Accreditors offer routine surveys based on up-to-date standards, but pay
          less attention to verifying compliance
          Unlike State agencies, accreditors survey ASCs every 3 years. This gives them and their
          standards high visibility and allows them to keep abreast of changes in facilities. In addition, the
          accreditors update their standards far more often than CMS, in some cases annually. This
          allows them to keep pace with advances in technology and changes in the ASC industry. For
          example, each has developed standards concerning malignant hyperthermia, a recently
          recognized complication triggered by common general anesthetics. Finally, accreditors tailor
          their standards to reflect the varying risk and complexity of services offered by different ASCs.

          By their nature, accreditors focus on continuous quality improvement through peer-to-peer
          interaction during surveys.13 Yet, while on-site, accreditation surveyors must assess compliance
          with hundreds of standards, usually within surveys that last less than 2 days. This packed
          agenda and the accreditor’s instructive approach result in less attention to verifying compliance
          with their standards. For example, we observed surveyors asking a series of questions about
          key standards, but not verifying the existence of supporting evidence. At times this approach
          can result in superficial review.

Medicare’s system of quality oversight lacks accountability

          CMS does little to hold State agencies and accreditors accountable to the
          Medicare program
          CMS does little to monitor the performance of State agencies and accreditors. It limits its use
          of electronic survey data to reviewing quarterly summaries of deficiencies, and does




Quality Oversight of ASCs: A System in Neglect         7                                      OEI-01-00-00450
          not use it to monitor elapsed times between surveys, disciplinary actions, or other metrics of
          performance. It cannot obtain a unified picture of survey activity in the ASC program because
          State agency and accreditation data each contain different information and are stored in
          separate, incompatible systems.14 It rarely performs Federal oversight surveys to monitor State
          agencies’ and accreditors’ performance surveying ASCs. While State agencies and accreditors
          conducted over 3,400 surveys of ASCs from 1995 to 2001, CMS conducted just 15 Federal
          oversight surveys—11 of which were in California. Finally, CMS’ periodic, formal evaluations
          shed little light on performance. Evaluations of State agencies only address their performance
          surveying nursing homes and those for accreditors are largely removed from their performance
          surveying ASCs.

          With so little monitoring of their performance, CMS is hard-pressed to provide meaningful
          feedback to State agencies and accreditors. It provides virtually no feedback to the State
          agencies on their performance overseeing ASCs. Its feedback to the accreditors, which is
          comprised of a letter following formal evaluation, is limited since it focuses on their policies and
          procedures rather than the quality of surveys they conduct.

          Finally, CMS’ routine, operational feedback to State agencies and accreditors is problematic.
          Officials from State agencies and accreditors cited lingering confusion over the permissibility of
          keeping Medicare patients for overnight stays, the required frequency of Life Safety Code
          surveys, and which accreditors were approved to survey ASCs.

          CMS does little to hold State agencies and accreditors accountable to the
          public
          State agency certification provides little public information on the performance of ASCs;
          accreditation provides slightly more. While CMS uses the Medicare web site, a telephone
          hotline, and postings within facilities to disseminate State agency survey reports for other
          provider types, it does not do so for ASCs.15 The Medicare handbook, which it sends to all
          Medicare beneficiaries, makes no mention of survey reports. Such reports are available
          through CMS offices or State agencies. However, these reports lack comparative information,
          leaving the public with no information on an ASC’s performance relative to its past or its peers.

          The availability of accreditation survey reports is also limited; only the Joint Commission makes
          them available to the public. The Joint Commission makes survey results, called performance
          reports, available over the phone and on-line. These reports include accreditation decisions,
          dates of surveys, and comparative information to other ASCs. They also identify those areas
          requiring improvement and whether they were resolved.

          CMS does little to make State agencies’ complaint process accessible to Medicare consumers.
          For example, it does not provide prominent, clear instructions for lodging complaints on the
          Medicare web site or over the Medicare telephone hotline, nor does it require ASCs to post
          complaint instructions.16, 17 In the Medicare handbook it instructs beneficiaries to bring
          complaints to peer review organizations, but recent OIG inquiries have found that they have
          flawed complaint processes.18 The complaint processes of the accreditors are slightly more
          accessible. Though not required by CMS, they include toll-


Quality Oversight of ASCs: A System in Neglect         8                                      OEI-01-00-00450
          free numbers on certificates of accreditation, which ASCs generally post in their lobbies, and/or
          solicit complaints or feedback through their web sites.

          Finally, CMS makes no information available on how well State agencies and accreditors carry
          out their charge to the Medicare program. It does not publish the results of formal evaluations,
          summaries of complaint volumes against State agency certified/accredited ASCs, or other
          information that would allow comparison across State agencies and accreditors.




Quality Oversight of ASCs: A System in Neglect        9                                    OEI-01-00-00450
                               RECOMMENDATIONS

CMS should determine an appropriate minimum cycle for
surveying ASCs certified by State agencies

          In determining a minimum survey cycle for ASCs, CMS should consider the nature and risks of
          care ASCs deliver.19 CMS should also consider a strategic approach that addresses survey
          cycles for ASCs within the overall context of adequately surveying all types of providers
          certified by State agencies. In addition, it should consider how its analysis of certain data could
          help it prioritize surveys across ASCs. For example, it could draw on volume of Medicare
          procedures, complaint history, and whether an ASC is accredited for reasons other than
          Medicare certification. CMS should also consider whether the financial demands presented by
          the rising number of Medicare-certified providers warrant establishing user fees, which would
          require a legislative change. Such steps might enable CMS to better manage and plan for
          growth in the number of certification surveys required to adequately oversee certified providers.

CMS should update the Medicare Conditions of Coverage for ASCs

          At a minimum, add sections that deal with patient rights and continuous
          quality improvement
          CMS should add a section to the Conditions that addresses issues such as how ASCs will
          respect patients’ dignity and resolve patient complaints. Such a step would reflect CMS’
          renewed focus on beneficiaries within its strategic plan and goals aimed at strengthening
          beneficiary satisfaction and protections.

          CMS should ensure that the Conditions require ASCs to conduct continuous quality
          improvement efforts. Over the longer term, we urge CMS to explore developing a set of
          standardized performance measures for ASCs. CMS could also use such measures to monitor
          ASCs’ performance and adjust the frequency and focus of surveys. CMS already has a similar
          initiative underway for nursing homes and home health agencies. Both the Medicare Payment
          Advisory Commission and Congress have recently called on CMS to explore the expanded use
          of quality indicators.20

          Make the Conditions adjustable to match the levels of surgery performed by
          different ASCs
          In updating the Conditions, CMS should move away from its current one-size-fits-all model and
          instead consider an adjustable approach that would enable surveyors to tailor them to individual
          ASCs.21 Such an approach might take into account anesthesia, invasiveness, and other factors
          that drive the risk and complexity of procedures done by a given ASC. This would improve the
          effectiveness and efficiency of State agency certification as well as minimize the regulatory
          burden by focusing the standards and the State agency survey around the level of services
          offered by each ASC.


Quality Oversight of ASCs: A System in Neglect        10                                    OEI-01-00-00450
CMS should ensure that State agency certification and
accreditation strike an appropriate balance between compliance
and continuous quality improvement

          While compliance typifies the regulatory approach taken by State agencies, continuous quality
          improvement is central to the collegial approach of accreditors. Both have important roles to
          play in quality oversight. In previous work, the OIG has highlighted work done by the National
          Roundtable on Health Care Quality and others that suggests both approaches have value, but
          not so much that one should dominate at the expense of the other.22 Balance between the
          approaches would protect the public from poorly performing ASCs while encouraging the rest
          to improve beyond minimal health and safety standards. Yet, quality oversight of ASCs
          provided by State agencies and accreditors engages almost exclusively in one approach or the
          other.

CMS should hold State agencies and accreditors fully accountable
to the Medicare program for their performance overseeing ASCs

          Use electronic data reporting to monitor basic metrics of performance
          CMS should use metrics such as elapsed time between surveys, follow-through with
          deficiencies and complaints, and trends in deficiency citations to continuously monitor State
          agencies’ and accreditors’ progress overseeing ASCs. This type of monitoring would allow
          CMS to detect problems within State agency certification and accreditation and take actions to
          correct them. In addition, it would enable CMS and State agencies to better manage survey
          resources, thus avoiding problems we found such as unresolved complaints and letting ASCs go
          10 or more years without a survey.

          Yet, to make better use of survey data, CMS must address limitations in their structure. We
          note that CMS is in the process of designing a new system for survey data and, in fact, is
          already using it for nursing homes and home health agencies. Thus, as CMS plans to move
          ASCs onto its new system, we offer some specifics for it to consider. First, CMS should
          ensure that its approach captures both State agency and accreditation data and allows them to
          be aggregated. The data should support monitoring the performance of accreditors and State
          agencies. Second, CMS should ensure that its system captures data on termination tracks,
          plans of correction, and reduced accreditation periods. Third, if CMS implements standardized
          performance indicators for ASCs, its system should house such data and support their use for
          adjusting the frequency and focus of surveys—as its new system does now for nursing homes
          and home health agencies.23

          Conduct periodic Federal oversight surveys to monitor the nature and
          extent of review done during State agency and accreditation surveys
          In conducting these surveys, CMS should use an approach that allows for consistency among
          Federal reviewers. CMS should also ensure that oversight surveys result in both routine and
          formal feedback to State agencies and accreditors. Without the benefit of Federal oversight
          surveys, it is nearly impossible for CMS to judge the quality of review conducted by State
          agencies and accreditors on Medicare’s behalf.

Quality Oversight of ASCs: A System in Neglect      11                                  OEI-01-00-00450
          Conduct formal, periodic evaluations of State agencies’ and accreditors’
          performance overseeing ASCs
          CMS’ newest approach to evaluation of State agencies uses national thresholds that are based
          on measurable indicators of performance—but thus far it focuses only on nursing homes. We
          urge CMS to broaden the scope of its evaluations of State agencies to incorporate other types
          of providers, including ASCs, and to use them to examine performance specific to each type of
          provider they survey. In addition, CMS should focus its evaluations of accreditors toward
          assessing their performance overseeing ASCs, in addition to assessing their organizational
          capacity and operating policies.

          Provide feedback to State agencies and accreditors on their performance
          CMS should use electronic survey data, Federal oversight surveys, and formal evaluations to
          inform routine and formal feedback to State agencies and accreditors. However, we note that
          for CMS to effectively monitor and provide feedback to State agencies and accreditors, it
          should first work with them to establish a common set of performance expectations for the
          oversight of ASCs.

          In addition, CMS should consider establishing a policy clearinghouse as a way of disseminating
          policy to State agencies and accreditors in a simultaneous and consistent manner. Such a
          clearinghouse would eliminate the confusion around CMS policy that we observed during our
          review. We note that CMS has already established a similar clearinghouse for nursing homes.

CMS should hold State agencies and accreditors accountable to
the public for their performance overseeing ASCs

          As our health care system moves toward a consumer-oriented marketplace, public
          accountability takes on increasing importance. Public accountability leverages CMS’ oversight
          by focusing the attention of the public, Medicare beneficiaries, and interest groups on the
          performance of ASCs and how well State agencies and accreditors ensure that ASCs provide
          quality care. Indeed, consumer orientation and its implications on CMS’ programs comprise a
          major theme within CMS strategic plan.24 The CMS Administrator has recently reaffirmed
          CMS’ commitment to enhancing the information available to the public on the Medicare
          program.25 However, at this time, the information available to Medicare beneficiaries about the
          performance of ASCs, their ability to complain about poor quality of care, and the performance
          of the quality oversight system itself is woefully inadequate.

          Take steps to increase the availability of performance information about
          ASCs certified by State agencies, including publishing it on the Medicare
          web site
          CMS should make full use of mechanisms it has available to disseminate performance
          information about ASCs. For example, with little effort, CMS could immediately place the
          results of State agency surveys on the Medicare web site, as it has done for nursing homes and
          dialysis facilities. In addition, CMS should make them available by request over the Medicare
          telephone hotline and provide instructions for obtaining them within



Quality Oversight of ASCs: A System in Neglect      12                                   OEI-01-00-00450
          the Medicare Handbook. Finally, CMS should require ASCs to post survey results on-site for
          patients to see—as it now does with nursing homes.

          CMS should improve the usefulness of survey results to Medicare consumers by adding
          comparative information such as the average number and types of deficiencies outstanding at all
          ASCs. In addition, CMS should seek to supplement them with other data that it already has
          available, such as the facility’s survey and complaint history. Finally, if CMS were to implement
          performance indicators for ASCs, summaries and comparisons of these data should be made
          available to consumers as well.

          Increase the accessibility of State agencies’ complaint process
          CMS should make full use of tools it has available to solicit complaints from Medicare
          consumers. Specifically, CMS should make clear, easy-to-find instructions for how to
          complain about ASCs available on the Medicare web site and over the Medicare telephone
          hotline. CMS should also require ASCs to post complaint instructions. These steps are in line
          with CMS’ commitment to collecting and investigating complaints that it outlines in its strategic
          plan.

          Negotiate with the accreditors to increase public information about
          accredited ASCs and the accessibility of their complaint processes
          CMS should work with the accreditors to define a minimum amount of information that they will
          make available about the Medicare ASCs they accredit. Similarly, CMS should work with the
          accreditors to ensure that their complaint mechanisms are accessible to Medicare consumers.
          In both cases, each of the accreditors already has in place a web site and telephone number
          where they could make information available. Finally, CMS should require accredited ASCs to
          post survey results and complaint instructions.

          Publish information on the performance of State agencies and accreditors
          CMS should use the Medicare web site, the Medicare telephone hotline, and other resources
          to disclose performance reviews of State agencies and accreditors. Information it discloses
          could include comparative summaries of survey data reporting, results of Federal oversight
          surveys, and formal evaluations. Should CMS implement performance indicators for ASCs,
          information could also include comparative summaries of the performance of State agency
          certified and accredited ASCs. Such disclosure holds State agencies and accreditors
          accountable for how well they oversee ASCs and can be useful for Medicare beneficiaries who
          have a choice between State agency certified and accredited facilities.




Quality Oversight of ASCs: A System in Neglect       13                                     OEI-01-00-00450
                              COMMENTS ON THE
                                DRAFT REPORT

          We received comments from CMS, the Accreditation Association for Ambulatory Health
          Care, the Joint Commission on Accreditation of Healthcare Organizations, and the American
          Association for Accreditation of Ambulatory Surgical Facilities. Below, we summarize their
          comments and offer our response to them in italics. Appendix A contains the full text of all the
          comments.

CMS

          CMS expressed general concurrence with many of our recommendations and cited many
          options it is considering that are in accord with them. However, noting resource constraints and
          other concerns, it did not fully commit itself to our key recommendations calling for a minimum
          survey cycle, a more accessible complaint process, and the publication of survey results.

          We understand the constraints CMS faces and the complexity of the issues associated
          with ASC oversight. Yet, we urge CMS to view our report as an early warning signal and
          to devote a sense of urgency to our recommendations. As we note in the report,
          Medicare ASCs are experiencing explosive growth and increasingly are performing
          major procedures that involve high levels of anesthesia and invasiveness. We urge CMS
          to develop an action plan and timetable that set forth specific actions it will take to
          improve its oversight of ASCs.

Accreditation Association for Ambulatory Health Care

          The Accreditation Association for Ambulatory Health Care generally agreed with our findings
          and recommendations. It asked that our reports include comparative data on safety across
          surgical settings and took issue with our concern about the depth of accreditation surveys. It
          noted that it has added a form to its website to solicit feedback, such as complaints, about its
          accredited centers. It also supported our call for a balance between compliance and
          continuous quality improvement efforts and noted its new policy for random, unannounced
          surveys, which will be effective in 2002.

          While our reports do reference literature on the safety of ambulatory surgery, presenting
          comparative data on safety across all settings was outside the scope of our inquiry, which
          focused on the oversight of ambulatory surgery centers. Future inquiries are planned
          that will examine the oversight of ambulatory surgery performed in hospital outpatient
          departments and physician offices. We still conclude that accreditation surveys pay more
          attention to education and improvement than to verifying compliance, and spell out the
          details for that conclusion in the supplemental report, “The Role of Certification and
          Accreditation.” Furthermore, we give more prominence to the importance of balance


Quality Oversight of ASCs: A System in Neglect       14                                     OEI-01-00-00450
          between compliance and improvement in the final reports. Finally, we made changes to
          the reports to clarify certain points and acknowledge the Association’s feedback
          mechanism on its web site.

Joint Commission on Accreditation of Healthcare Organizations

          The Joint Commission generally agreed with the findings in our reports. It pointed out that
          many accredited ASCs have not elected to use their accreditation for deemed status. The Joint
          Commission took issue with our concern about the depth of accreditation reviews and the
          helpfulness of the survey information it discloses.

          In the final reports, we clarified that some ASCs surveyed by State agencies for Medicare
          certification may also, in fact, be accredited without electing to use their accreditation
          for deemed status. We urge CMS to consider this information, along with volume of
          Medicare claims and complaints, in determining how to best use its limited resources and
          prioritize ASCs for State agency surveys. We still conclude that accreditation surveys
          pay more attention to education and improvement than to verifying compliance. We give
          more prominence to the importance of balance between compliance and improvement in
          the final reports. Finally, although we still contend that a scoring system that results in
          the great majority of ASCs falling into one broad category of accreditation
          (Accreditation with Type I Recommendations) does little to help consumers differentiate
          between an ASC with few or many recommendations for improvement, we did clarify the
          performance information available from the Joint Commission.

American Association for Accreditation of Ambulatory Surgery Facilities

          The American Association generally agreed with our conclusions. It noted that its certificates of
          accreditation include a toll-free number for complaints and that these certificates are generally
          displayed prominently by its accredited ASCs.

          In the final reports, we clarified that the certificates of accreditation include a toll-free
          number and address for filing complaints.




Quality Oversight of ASCs: A System in Neglect       15                                    OEI-01-00-00450
                                                                                                                      APPENDIX A




                        Full Text of Comments on the Draft Report




          CMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


          Accreditation Association for Ambulatory Health Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


          Joint Commission on Accreditation of Healthcare Organizations . . . . . . . . . . . . . . . . . . . . . 27


          American Association for Accreditation of Ambulatory Surgical Facilities . . . . . . . . . . . . . . 31





Quality Oversight of ASCs: A System in Neglect                        16                                                   OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   17    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   18    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   19    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   20    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   21    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   22    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   23    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   24    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   25    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   26    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   27    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   28    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   29    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   30    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   31    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   32    OEI-01-00-00450
                                                      APPENDIX A




Quality Oversight of ASCs: A System in Neglect   33    OEI-01-00-00450
                                                                                       APPENDIX B




                                                 Endnotes


1. 42 C.F.R., sec. 416.2.

2. Mark A. Warner et al., “Major Morbidity and Mortality Within 1 Month of Ambulatory Surgery and
Anesthesia,” Journal of the American Medical Association 270 (September 22, 1993) 12: 1437-
1441.

G. Mezei & F. Chung, “Return hospital visits and hospital readmissions after ambulatory surgery,”
Annals of Surgery 230 (November 1999) 5: 721-727.

Rebecca Twersky et al., “What happens after discharge? Return hospital visits after ambulatory
surgery,” Anesthesia & Analgesia 84 (February 1997) 2: 319-324.

3. Margaret Jean Hall et al., “Ambulatory Surgery in the United States, 1996,” Advance Data: National
Center for Health Statistics, Centers for Disease Control 300 (August 12, 1998).

Mark A. Warner et al., “Major Morbidity and Mortality Within 1 Month of Ambulatory Surgery and
Anesthesia,” Journal of the American Medical Association 270 (September 22, 1993) 12: 1437-
1441.

4. Social Security Act, sec. 1865, 42 U.S.C. 1395bb.

5. These are the accreditors approved as of August, 2001. CMS announced in the Federal Register
(50 Fed. Reg. 66, 14906, March 14, 2001) that the American Osteopathic Association (AOA)
applied for recognition as a national accreditation program for ASCs for the Medicare program. As of
the date this report was issued the AOA had not yet been approved to accredit Medicare ASCs. The
Joint Commission on the Accreditation of Health Care Organizations and the Accreditation Association
for Ambulatory Health Care have been approved since December 19, 1996 ( 245 Fed. Reg. 61,
67042, Dec. 19, 1996). The American Association for Accreditation of Ambulatory Surgical Facilities
has had approval since December 2, 1998 (231 Fed. Reg. 63, 66554, Dec. 2, 1998).

6. CMS approves procedures to be performed in ASCs based on 42 C.F.R., sec. 416.65. These
standards limit ASC procedures to those that do not generally result in extensive blood loss, that do not
require major or prolonged invasion of body cavities, that do not directly involve major blood vessels,
or that are not generally emergency or life-threatening in nature.

7. Section 1833(i)(1) of the Social Security Act requires that the ASC list be reviewed and updated at
least biennially. The current list of procedures approved for ASCs was last reviewed and updated in
1995. CMS has not updated this list in over 6 years and has missed its last three scheduled update
deadlines.


Quality Oversight of ASCs: A System in Neglect      34                                   OEI-01-00-00450
                                                                                      APPENDIX B



8. We count the number of ASCs that have not had a survey in 5 or more years in a given year using
the midyear, July 1, as the point of reference for each year.

9. Year 2000 data is from December 2000. According to OSCAR, as of May 2001, 3,234 ASCs
participate in the Medicare program, of those, 2, 966 are certified.

10. OIG analysis of OSCAR data. Complaint files are considered to be unresolved if they are listed in
OSCAR as “pending.” We obtained a total of 18 complaint files to check against OSCAR. We found
that the provider files marked pending in OSCAR have not had a follow-up survey or action against
them since the complaint survey was performed.

11. CMS does speak to the importance of continuous quality improvement in its interpretive guidelines
to ASC surveyors. However, because the Conditions themselves make no demand for ASCs to
conduct continuous quality improvement, CMS cannot hold ASCs responsible for not engaging in such
activities.

12. CMS has implemented the Minimum Data Set in nursing homes and the Outcome and Assessment
Information Set in home health agencies. In addition, CMS calls for quality indicators within its
proposed update of the Conditions of participation for hospitals.

13. For more on the nature of accreditation, see Office of Inspector General, The External Review of
Hospital Quality: A Call for Greater Accountability (July 1999).

14. CMS stores State agency data in its Online Survey Certification and Reporting System (OSCAR),
which resides on its mainframe computer. It stores accreditation data on a personal computer
spreadsheet.

15. For example, CMS provides nursing home surveys and comparative data on nursing homes on a
special section of its web site called “Medicare Compare”. CMS also requires nursing homes to post
recent surveys for consumers to see. In addition, CMS requires State agencies maintain a hotline for
beneficiaries to obtain the results of home health surveys.

16. As of July, 2001, the Medicare web site (www.medicare.gov) listed points of contact for quality of
care and complaints together in a section called ‘Helpful Contacts,’ placed two levels beneath the front
(home) page . The list contained points of contact for a dozen entities including those for complaints
about nursing homes and end stage renal disease dialysis facilities. Peer Review Organizations appeared
at the end of the list as a point of contact for complaints about quality of care. There were no
instructions about how the complaint process works, its time lines, or beneficiaries’ rights within the
complaint process.

17. We called the Medicare telephone hotline (1-800-MEDICARE) twice in February, 2001 to find
instructions for complaining about poor care. One time the operator referred us to the Peer Review
Organization and the other to the State agency.

Quality Oversight of ASCs: A System in Neglect    35                                    OEI-01-00-00450
                                                                                     APPENDIX B



18. See Office of Inspector General, The Beneficiary Complaint Process of the Medicare Peer
Review Organization, OEI-01-93-00250, November 1995 and Office of Inspector General, The
Medicare Beneficiary Complaint Process - A Rusty Safety Valve, OEI-01-00-00060, August
2001.

19. CMS could also consider whether particular ASCs are, in fact, treating Medicare beneficiaries.
Our analysis revealed 515 certified ASCs that made no Medicare claims in 2000. Further analysis
would be needed to determine whether these 515 are newly certified and therefore unlikely to have
claims for the year 2000.

20. In its 2000 Report to the Congress, Medpac recommended that CMS expand its indicator-driven
survey process for nursing homes and home health agencies to other providers in the Medicare
program. In the Benefits Improvement and Protection Act of 2000, Congress directed the Secretary to
work with Medpac and the Agency for Healthcare Research and Quality to examine and report on the
development of standard instruments for patient assessment across settings.

21. Such a change may require legislation.

22. Department of Health and Human Services, Office of Inspector General, The External Review of
Hospital Quality, OEI-01-97-00050; Office of Inspector General, The External Quality Review of
Dialysis Facilities, OEI-01-99-00050; Mark R. Chasin et al, “The Urgent Need to Improve Health
Care Quality: Institute of Medicine National Roundtable on Health Care Quality,” Journal of the
American Medical Association 280 (September 16, 1998) 11: 1000-1005.

23. CMS’ new system, called the Quality Improvement and Evaluation System (QIES), uses the
Minimum Data Set merged with OSCAR data to allow State agencies to monitor the performance of
nursing homes. CMS also uses these data to monitor the performance of State agencies. CMS is now
integrating the Home Health Care Outcome and Assessment Information Set into QIES to allow for
similar capability for overseeing home health agencies.

24. CMS Strategic Plan, Publication HCFA-02135, September, 1998.

25. Using Technology to Improve Medicare Before the Subcomm. on Science, Technology, and
Space of the Senate Comm. on Commerce, Science, and Transportation, 107th Cong., 1st Sess. 78
(2001).




Quality Oversight of ASCs: A System in Neglect    36                                   OEI-01-00-00450
